           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Quality Control Review on the                                          Date:    September 30, 2013
           Single Audit of the Regional Transportation
           District of Denver, Colorado
           Report No. QC-2013-142


  From:    George E. Banks, IV                                                              Reply to
                                                                                            Attn. of:   JA-20
           Program Director for Single Audit

    To:    Regional Administrator, FTA, Region VIII


           The U. S. Department of Transportation (DOT) is the cognizant Federal single
           audit agency for the Regional Transportation District of Denver, Colorado (the
           District). This report presents the results of our Quality Control Review (QCR) on
           DOT’s major grant programs included in the single audit of the District performed
           by RubinBrown LLP (RubinBrown) for the fiscal year ending December 31, 2012.
           During this period, the District expended approximately $265 million from DOT
           grant programs, as shown on the attached Schedule of Expenditures of Federal
           Awards. RubinBrown determined that DOT’s major program was the Federal
           Transit Cluster.

           The Office of Management and Budget’s (OMB) Circular A-133, “Audits of
           States, Local Governments, and Non-Profit Organizations,” requires the auditor to
           render an opinion on the entity’s financial statements, identify inappropriate use of
           Federal funds, and report internal control and compliance deficiencies that affect
           Federal grant programs.

           RubinBrown rendered an unqualified opinion on the District’s financial statements
           and compliance with DOT’s major program requirements for the Federal Transit
           Cluster and did not question any costs. 1



           1
               The single audit report issued by RubinBrown is available upon request to singleauditrequest@oig.dot.gov.
                                                                                 2


SCOPE

The purpose of our QCR was to determine: (1) whether the audit work complied
with the Single Audit Act of 1984, as amended, and OMB Circular A-133; and
(2) the extent to which we could rely on the auditors’ work on DOT’s major
program, the Federal Transit Cluster.

RESULTS

We determined that RubinBrown’s audit work was Acceptable, and therefore, met
the requirements of the Single Audit Act, OMB Circular A-133, and DOT’s major
program. We found nothing to indicate that RubinBrown’s opinion on DOT’s
major program was inappropriate or unreliable.

If you have any questions concerning this report, please call me at (410) 962-1729,
or John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.

                                        #

cc: Audit Liaison, FTA, TPM-2
    Audit Liaison, OST, M-1
    Manager of Accounting, Regional Transportation District of Denver, Colorado
                                                REGIONAL TRANSPORTATION DISTRICT
                                            SCHEDULE OF EXPENDITURES OF FEDERAL AWARDS
                                                  For The Year Ended December 31, 2012



                                                               Federal                              Accounts                                             Accounts
                 Federal Agency/Pass-Through                    CFDA               Award           Receivable                                           Receivable
                    Grantor Program Title                      Number             Amount     December 31, 2011       Receipts      Expenditures   December 31, 2012

U.S. Department Of Transportation
Pass-through Colorado Department of Transportation
 Highway planning and construction                              20.205 $       41,294,448      $     5,078,960 $     9,086,202 $      6,879,281     $     2,872,039

 Federal Transit Administration
  Capital investment grants                                     20.500       1,584,246,494         124,192,760     191,984,651      175,339,009         107,547,118
  Formula grant - Urban Area Formula Program                    20.507         372,436,835           8,198,811      84,387,846       76,776,044             587,009
  Formula grant - Urban Area Formula Program - ARRA             20.507         144,184,352          12,004,847      16,841,156        5,124,768             288,459
  Transit planning and research                                 20.514             618,592              56,828              —            63,330             120,158
  New Freedom Program                                           20.521           4,124,988             855,919       1,333,671          477,752                  —
  Alternatives Analysis                                         20.522           1,000,000                  —           82,174          274,343             192,169
  Capital Assistance Program for Reducing Energy Consumption
    and Greenhouse Gas Emissions - Recovery                     20.523           1,095,000               3,414           3,414               —                   —
 Total for Federal Transit Administration                                    2,107,706,261         145,312,579     294,632,912      258,055,246         108,734,913
  Total U.S. Department Of Transportation                                    2,149,000,709         150,391,539     303,719,114      264,934,527         111,606,952

Department Of Homeland Security
 Rail and Transit Security Grant Program                        97.075          3,120,699             791,387        1,906,827        1,117,980               2,540
  Total Department Of Homeland Security                                         3,120,699             791,387        1,906,827        1,117,980               2,540

  Total Federal Expenditures                                             $   2,152,121,408     $   151,182,926 $   305,625,941 $    266,052,507     $   111,609,492




See the accompanying notes to the schedule of expenditures of federal awards.                                                                               Page 8
